o

g0“55 50
FILED
AUG 2 2020
IN THE
SUPREME COURT OF THE UNITED STATES

ROBERT KELVIN LINDBLOOM,
PETITIONER
v.
Lower case number. 8:18-cv-2642-T-02AEP
MANATEE COUNTY, A POLITICAL
SUBDIVISION OF THE STATE OF FLORIDA,
TANYA SHAW, DONALD COURTNEY,
TOM WOOTEN, KATHARINE ZAMBONI
RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI TO:
UNITIED STATES DISTRICT COURT OF APPEAL, 11™ DISTRICT
19-12650-CC

PETITION FOR WRIT OF CERTIORARI
Robert Kelvin Lindbloom, Pro Se
7005121st AveE.
Parrish, Florida 34219
941-448-8460
Docatari@ Gmail.com

QUESTION PRESENTED
Do specific and particular allegations of peijury and submitting false
evidence overcome a presumption of qualified immunity in a Motion to
Dismiss?

II

LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A
list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows:
Robert Kelvin Lindbloom,
Petitioner

Manatee County, a political subdivision of the State of Florida
Tanya Shaw,
Donald Courtney
Tom Wooten,
Katharine Zamboni
Defendants

RELATED CASES
None

III

INDEX TO THE APPENDICES
APPENDIX A

Appeal Court Order

APPENDIX B

District Court Order

APPENDIX C

Motion for Extension

APPENDIX D

Blanket Extension for 150 days

IV

TABLE OF AUTHORITIES CITED

■

• Hardwick v. County of Orange. 844 F. 3d 1112 - Court of Appeals, 9th
Circuit... No. 15-55563. Argued and Submitted October 7,2016
Pasadena, California.
Filed January 3,2017.
• MICHAEL D. JONES, P.A., Appellant, v. SEMINOLE COUNTY, etc.,
Appellee. 670 So.2d 95 (1996) No. 95-1038. Februaiy 16,1996.
Rehearing Denied March 26,1996.

STATUTES AND RULES
None

OTHER
None

V

TABLE OF CONTENTS
Page number
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-5

REASONS FOR GRANTING THE WRIT

6-7

CONCLUSIONS

8

VI

IN THE SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectively prays that a writ of certiorari issue to review the judgment
below.

OPINIONS BELOW

The opinion of the United States Court of appeals appears at Appendix __A
to the petition and is unpublished.

The opinion of the United States district court appears at Appendix B to the
petition and has not been recorded.

l

JURISDICTION

FEDERAL CASES

The date on which the United States Court of Appeals decided my case was
March 31.2020.
[X] No petition for rehearing was timely filed in my case.
[ X] An extension of time to file the petition for a writ of certiorari was
granted to and including August 27,2020 on March 19,2020.

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1)

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Fourth Amendment, US constitution
Fourteenth Amendment, US Constitution

i

3

j

STATEMENT OF THE CASE
Lindbloom alleged on many occasions, including at the original hearing and
the Fourth, Fifth, Eighth Causes of Actions, that Shaw gave false testimony and/or
presented false evidence at the hearing as well as in the Notice of Violation.
(NOV) This action comes to the Court on a Motion to Dismiss, where all well
plead factual allegations are to be considered true.
Submitting false testimony and/or presenting false evidence are actions well
known by Shaw to be wrong and contrary to the concept of due process. Although
formal rules of evidence are not available, the basic concept of due process is
available. Nothing is more fundamental to due process that the reliance on sworn
testimony.

“In this case, the jury specifically concluded that Vreeken and
Dwojak lied, falsified evidence and suppressed exculpatory evidence
— all ofwhich was material to the dependency court's decision to
deprive Fogarty-Hardwick of custody — and that they did so with
malice. These findings are clearly sufficient to satisfy the Supreme
Court's definition ofcircumstances in which 'qualified immunity
would not be available. ”
Id. at *14
No official with an IQ greater than room temperature
in Alaska could claim that he or she did not know that the conduct at
the center of this case violated both state andfederal law. The social
workers in this case are alleged to have knowingly and maliciously
violated the law in their attempt to sever Preslie'sprotected
relationship with her mother. Perjury is a crime under both federal
4

and California state law, as is the knowing submission offalse
evidence to a court. 18 U.S.C. § 1621; Cal. Penal Code § 118.
Hardwick v. County of Orange, 844 F. 3d 1112Court of Anneals, 9th Circuit?.. No. 15-55563.
Argued and submitted October /, 2016 Pasadena,
California. Filed January 3,2017.

Appellants had claimed in their reply (Dkt. 27, page 7) that Lindbloom had
conceded that the defendants had been within their jobs.
“In the present case, the Plaintiffhas acknowledged that at all
relevant times Shaw, Wooten and Zamboni were acting within the
scope oftheir respective discretionary authority. (Doc.26 fflf 75,76
and 78). “
This is simply not true. The purported quote provided by the Defendants is
untrue and does not appear anywhere in Lindbloom’s pleadings.
The references provided by the Defendants specify the names of:
“(75) Defendant Tanya Shaw
(76) Defendant Donald Courtney
(78) Katharine Zamboni: Assistant County Attorney”
By committing perjury and submitting false evidence, Shaw should lose her
qualified immunity protection, since she was well aware that committing perjury
and submitting false evidence was contrary to her job.
Neither the trial court nor the Appeals court addressed this argument.

5

REASONS FOR GRANTING THE MOTION

Lindbloom has continually maintained, from the original hearing, that Shaw
perjured herself and presented false evidence. In the instant “Motion to Dismiss”,
those allegations alone should be sufficient to reach a jury.
Over 20 years ago the Fifth District Court of Appeals for Florida, noted that the
current “Code Enforcement System may well deserve the characterization of a
“Kangaroo Court.
We are not unsympathetic to Jones' argument (based on newspaper
accounts and Jones' description of hearings before other boards,
which Jones cites in this case) that some boards take unbridled and
arbitrary actions, and may well deserve Jones' characterization of
them as "kangaroo courts."
MICHAEL D. JONES, P.A., Appellant, v. SEMINOLE
COUNTY, etc., Appellee. 670 So.2d95 (1996) No. 951038. February 16, 1996. Rehearing Denied March 26,
1996.

Appellant suggests that the characterization of due process procedures as a
“Kangaroo Court”, by a Florida Appeals Court Judge, makes any such process so
designated, suspect.
The “due process” provided by the county/state does not provide for any “rules
of evidence” and the magistrate has much discretion with respect to the evidence
allowed. This case is rightly in this honorable court. It is this court’s raison d’etre
to draw a line in the sand: To say this far and no further.
6

CONCLUSION
The petition for a writ of certiorari should be granted to preserve a minimum due
process standard: Perjury and/or submission of false evidence are not allowed.
Respectfully submitted,

Robert Kelvin Lindbloom, Pro Se
Docatari@ Gmail.com
941-448-8460

7

